Report No. D-2008-072             March 28, 2008




              Controls Over Army
             Real Property Financial
                   Reporting
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Office of the Deputy
  Inspector General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                       ODIG-AUD (ATTN: Audit Suggestions)
                       Department of Defense Inspector General
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms

ACSIM                 Assistant Chief of Staff for Installation Management
AGF                   Army General Fund
ASA(FM&C)             Assistant Secretary of the Army (Financial Management and
                         Comptroller)
AWCF                  Army Working Capital Fund
CIP                   Construction-in-Progress
DCD/DCW               DFAS Corporate Database/DFAS Corporate Warehouse
DFAS                  Defense Finance and Accounting Service
DoD FMR               DoD Financial Management Regulation
DPAS                  Defense Property Accountability System
DUSD(I&E)             Deputy Under Secretary of Defense (Installations and Environment)
GAO                   Government Accountability Office
GAAP                  Generally Accepted Accounting Principles
GFEBS                 General Fund Enterprise Business System
GLAC                  General Ledger Accounting Code
IFS                   Integrated Facilities System
LMP                   Logistics Modernization Program
OUSD(C)/CFO           Office of the Under Secretary of Defense (Comptroller)/Chief
                         Financial Officer
RPAO                  Real Property Accountability Officer
SFFAS                 Statement of Federal Financial Accounting Standards
SIFS                  Standard Industrial Fund System
USACE                 U.S. Army Corps of Engineers
                              INSPECTOR GENERAL
                             DEPARTMENT OF DEFENSE
                              400 ARMY NAVY DRIVE
                         ARLINGTON, VIRGINIA 22202-4704



                                                                           March 28, 2008

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE
                 (COMPTROLLER)/CHIEF FINANCIAL OFFICER
               DEPUTY UNDER SECRETARY OF DEFENSE
                 (INSTALLATIONS AND ENVIRONMENT)
               AUDITOR GENERAL, DEPARTMENT OF THE ARMY
               DIRECTOR, DEFENSE FINANCE AND ACCOUNTING
                 SERVICE

SUBJECT: Report on Controls Over Army Real Property Financial Reporting
         (Report No. D-2008-072)


       Weare providing this report for review and comment. We considered comments
from the Office of the Under Secretary of Defense (Comptroller), Department of the
Army, and Defense Finance and Accounting Service when preparing the final report.

        DoD Directive 7650.3 requires that all recommendations be resolved promptly.
The Deputy Chief Financial Officer's comments were responsive. However, the
comments from the Army and Defense Finance and Accounting Service were only
partially responsive. Therefore, we request additional comments on Recommendations
Rl., R2., and C.3.b. by April 28, 2008.

        If possible, please send management comments in electronic format (Adobe
Acrobat file only) to AUDDFS@dodig.mil. Copies ofthe management comments must
contain the actual signature of the authorizing official. We cannot accept the / Signed /
symbol in place of the actual signature. If you arrange to send classified comments
electronically, they must be sent over the SECRET Internet Protocol Router Network
(SIPRNET).

        We appreciate the courtesies extended to the staff. Questions should be directed
to Mr. Carmelo G. Ventimiglia at (317) 510-4801, ext. 275 (DSN 699-4801) or
Mr. George C. DeBlois at (317) 510-4801, ext. 273 (DSN 699-4801). See Appendix E
for the report distribution. The team members are listed inside the back cover.




                                       Patricia A. Marsh, CPA
                                     Assistant Inspector General
                                  Defense Financial Auditing Service
                Department of Defense Office of Inspector General
Report No. D-2008-072                                                     March 28, 2008
   (Project No. D2006-D000FI-0249.000)

          Controls Over Army Real Property Financial Reporting

                                  Executive Summary

Who Should Read This Report and Why? DoD personnel responsible for real
property accountability and financial reporting should read this report. It discusses the
processes and controls needed to ensure accurate and complete financial reporting of real
property assets.

Background. A well-designed process for reporting real property on financial
statements employs standard data elements and transaction processes, consistent internal
controls, and efficient transaction entry. DoD real property consists of land, buildings,
and other structures; improvements to owned or leased real property assets; and real
property assets under construction.

The Army reports real property assets on the financial statements for the Army Working
Capital Fund (AWCF), the Army General Fund, and the U.S. Army Corps of Engineers,
Civil Works. Real property acquisition costs reported on the FY 2006 AWCF Financial
Statements consisted of $2.2 billion in buildings and other structures, $95 million in
leasehold improvements, and $37 million in construction-in-progress. This is the first of
two reports related to the controls over AWCF real property assets.

Results. DoD and the Army have made progress in standardizing data elements and
processes to reduce redundancies and other inefficiencies in reporting real property.
However, the DoD preponderance-of-use policy and Army practices for reporting AWCF
and Army General Fund real property assets did not comply with accounting principles
generally accepted in the United States. As a result, the Army did not prepare its
financial statements in accordance with those principles and misstated the acquisition
cost of real property assets on the FY 2006 AWCF and Army General Fund Financial
Statements by $424.3 million from six judgmentally selected sites. To report real
property assets accurately, DoD needs to replace the preponderance-of-use policy with a
costing method for assigning costs to the real property users. The Army must ensure
compliance with the new costing methodology and correct misstatements in the Army
financial statements (Finding A).

The Army did not implement a uniform business process for creating a subsidiary ledger
file to support the accountability and financial reporting of its real property assets.
Maintaining two different business processes was inefficient and resulted in inaccurate
and incomplete real property data in subsidiary ledger files. The Army should develop a
common process for Army entities to establish and maintain subsidiary ledger files,
depreciate real property, and pass financial data to the financial statements. The process
should employ the same system functionality and monthly cutoff date. In addition, the
Army should reconcile the data in its real property management and accounting systems.
As the Army develops and implements future accounting systems, it should develop the
functionality to generate subsidiary ledger data at the installation level for financial
reporting purposes. As an interim measure, the Army should send all financial
transactions to the Defense Finance and Accounting Service (DFAS) Corporate
Database/DFAS Corporate Warehouse and work with DFAS to develop the capabilities
in the Army accounting systems to retrieve needed financial transactions from DFAS
Corporate Database/DFAS Corporate Warehouse. Once that is accomplished, Army
should expand the capabilities of the AWCF Integrated Facilities System databases and
stop using the Defense Property Accountability System as an Army real property system
(Finding B).

The Army did not accurately and efficiently transfer construction-in-progress costs
between its accounting and property management systems. As a result, Army could not
ensure the accuracy and completeness of the acquisition costs of its real property assets.
Also, the Army expended resources to perform duplicate entry of cost data into its
systems. The Army needs to be able to transfer construction costs from the construction
agent to the installations that will account for the real property assets. In addition, the
Army should develop system capabilities in accounting systems to capture all of the
relevant construction costs and send acquisition costs to the property management
systems when placing assets in service. Until the Army can integrate its systems, it
should require resource managers to enter acquisition costs manually into the Integrated
Facilities System. In addition, DoD needs to update the DoD Financial Management
Regulation to require DoD entities to record the transfer in of assets to the appropriate
general ledger accounting code (Finding C). See the Findings section of the report for
the detailed recommendations.

Management Comments and Audit Response. The Deputy Chief Financial Officer
agreed with the need to update the DoD Financial Management Regulation to develop
new business rules for defining financial control over real property assets and
implementing a costing methodology that complies with generally accepted accounting
principles. He also agreed with updating the DoD Financial Management Regulation to
record assets transferred in to the appropriate general ledger account. However, he did
not agree with the need to rescind the preponderance-of-use policy. The Deputy Chief
Financial Officer’s comments were responsive. His plan to define financial control and
imputed costing methods for real property assets will meet the intent of our
recommendations.

The Deputy Assistant Secretary of the Army (Financial Operations), in coordination with
functional stakeholders from the Army Budget Office, Office of the Assistant Chief of
Staff for Installation Management, and the U.S. Army Materiel Command, concurred with
our recommendations. He agreed to identify and record real property assets on the proper
financial statements and train real property personnel on the new costing methodology.
The Deputy Assistant Secretary also agreed with the need for uniform processes for
reporting and periodically reconciling real property and added that our recommended
actions were part of ongoing General Fund Enterprise Business System business
transformation efforts and conversion preparations. He stated that if a substantial delay in
system implementation occurred, he would consider making interim changes to the
business process for reporting Army real property assets. He also stated that because the
General Fund Enterprise Business System would subsume the Integrated Facilities
System, there was no need to develop a system interface with the accounting systems.
The Deputy Assistant Secretary agreed to work with other responsible Army offices to
develop the necessary system requirements in the General Fund Enterprise Business
System and develop an interim process for recording acquisition costs until the system


                                             ii
functionality exists. He also agreed to work with DFAS and the U.S. Army Corps of
Engineers to develop an approach for transferring construction-in-progress costs to the
appropriate AWCF installations.

The Director for DFAS Indianapolis Operations nonconcurred with Recommendations
B.1. and C.4. He stated that we should redirect issues related to the DFAS Corporate
Database/DFAS Corporate Warehouse to the Business Transformation Agency and
methods for transferring construction-in-progress costs to the Army. He stated that
DFAS would support the Army’s efforts.

The Deputy Assistant Secretary’s comments were partially responsive. We agree that
developing an interface with the Integrated Facilities System is unnecessary if the
General Fund Enterprise Business System subsumes these functions. However, the Army
will need to ensure that it integrates AWCF and Army General Fund systems to properly
record real property transactions. We do not agree with the Army’s position not to
develop an interim solution for improving the financial reporting of its real property
assets. The current processes do not accurately report its real property assets, and the
Army has already developed a real property initiative within the DFAS Corporate
Database/DFAS Corporate Warehouse that DFAS can use to report AWCF real property
assets. The initiative, if properly implemented, would give the Army the ability to
reconcile and consistently report its real property assets, while developing the subsidiary
data ledger data needed to transition to the General Fund Enterprise Business System.
The Army and DFAS must work together to develop a plan for using the data collected
within the DFAS Corporate Database/DFAS Corporate Warehouse to report real property
assets. Furthermore, we do not agree that the Army can wait until the fielding of future
systems to restrict real property personnel from recording acquisitions costs in the
Integrated Facilities System. However, we agree with DFAS that the Army should have
the lead role in developing a method for transferring construction-in-progress costs to the
appropriate AWCF installation. Consequently, we revised Recommendation C.4., and
consider the Army comments on this recommendation to be responsive. See the Findings
section of the report for a discussion of management comments and the Management
Comments section of the report for the complete text of the comments.

We request that the Army and DFAS reconsider their positions on Recommendations
B.1., B.2., and C.3.b. and provide additional comments on the final report by
April 28, 2008.




                                            iii
Table of Contents

Executive Summary                                                            i

Background                                                                   1

Objectives                                                                   3

Review of Internal Controls                                                  3

Findings
     A. DoD Preponderance-of-Use Policy                                      5
     B. Subsidiary Ledger File Supporting Army Real Property Transactions   12
     C. Reliability of Acquisition Costs                                    20

Appendixes
     A. Scope and Methodology                                               30
         Prior Coverage                                                     32
     B. Glossary                                                            33
     C. Real Property Systems                                               35
     D. Memorandum to the Office of the Under Secretary of Defense
          (Comptroller)/Chief Financial Officer                             37
     E. Report Distribution                                                 42


Management Comments
     Under Secretary of Defense (Comptroller)/Chief Financial Officer       45
     Department of the Army                                                 48
     Defense Finance and Accounting Service                                 54
Background
           DoD real property assets consist of land; buildings and other structures;
           improvements to owned or leased real property assets; and real property
           construction-in-progress (CIP). The Army reports real property assets on the
           financial statements for the Army Working Capital Fund (AWCF), the Army
           General Fund (AGF), and the U.S. Army Corps of Engineers (USACE), Civil
           Works. The Army reports all of its land assets on the AGF financial statements.

           The AWCF is composed of the Industrial Operations and the Supply
           Management, Army activity groups. 1 The AWCF Industrial Operations activity
           group reported more than 19,000 real property assets at 13 installations. The
           Supply Management Army activity group reported only three real property assets
           as of September 30, 2006. The table shows the acquisition cost and book value of
           real property assets reported on the FY 2006 AWCF Financial Statements. See
           Appendix B for a glossary of terms used throughout the report.

                                    AWCF Real Property Costs
                                               Acquisition Cost                        Book Value*
                          Asset Class            (in millions)                         (in millions)
          Land                                                  $    0.0                   $ 0.0
          Buildings, Structures, and Facilities                  2,231.9                    793.1
          Leasehold Improvements                                    95.2                     16.2
          CIP                                                       36.5                     36.5
           Total                                                $2,363.6                   $845.8
          *Book value is the acquisition cost of assets less accumulated depreciation on those assets.

Real Property Responsibilities
           The U.S. Army Assistant Chief of Staff for Installation Management (ACSIM)
           manages Army real property assets. ACSIM employees enter all real property
           accountability information in the Integrated Facilities System (IFS) but
           financially process AWCF and AGF real property assets differently. For AWCF
           real property assets, IFS sends real property records to the Defense Property
           Accountability System (DPAS) to calculate depreciation. DPAS then provides
           AWCF financial transactions to the accounting systems. The AWCF uses data
           from three accounting systems to report the value of real property assets in the
           financial statements. It uses data from the Standard Industrial Fund System
           (SIFS) and the Logistics Modernization Program (LMP) system for the Industrial
           Operation activity group. 2 It also uses the Standard Operations and Maintenance,
           Army Research and Development System for the Supply Management, Army
1
    Activity groups are business areas used to identify the organizational structure, assets, and liabilities of an
    Army operation.
2
    The Army Program Executive Office, Enterprise Information Systems manages LMP. The Program
    Executive Office, Enterprise Information Systems also oversees the General Fund Enterprise Business
    System, which will become the AGF accounting system.

                                                          1
           activity group. See Appendix C for a more detailed discussion of the systems
           involved in the AWCF real property process. For AGF real property assets, IFS
           calculates depreciation before sending the financial transactions to the DFAS
           Corporate Database/DFAS Corporate Warehouse (DCD/DCW).

           The Assistant Secretary of the Army (Financial Management and Comptroller)
           (ASA[FM&C]) is responsible for the policies, procedures, programs, and systems
           pertaining to finance and accounting. DFAS provides finance and accounting
           services to the Military Departments. DFAS Indianapolis consolidates financial
           information from the accounting systems, compiles other information sent in from
           data calls, and makes adjustments as necessary to prepare the AWCF and AGF
           financial statements. 3


Integrated System Requirements
           Financial management systems are used to track financial events, provide
           financial information, and prepare financial statements. Office of Management
           and Budget Circular No. A-127, “Financial Management System,” July 1993,
           prescribes policies and standards for Federal entities to develop, operate, and
           evaluate financial management systems that will be used for financial reporting.
           The circular states that entities should design their financial management systems
           to provide for effective and efficient interrelationships among software, hardware,
           personnel, procedures, controls, and data contained within the system. Financial
           management systems should have the following characteristics:

                    •   common data elements that establish and use standard data
                        classification for recording financial events;

                    •   common transaction processes throughout the system to ensure
                        consistent reporting of similar transactions;

                    •   consistent internal controls over data entry, transaction processing, and
                        reporting throughout the system to ensure the validity of information
                        and protection of Federal Government resources; and

                    •   efficient transaction entry. The financial data should enter the
                        financial system only once and automatically update the other parts of
                        the system as necessary.


DoD Financial Management Regulation
           DoD Financial Management Regulation (DoD FMR), volume 4, “Accounting
           Policy and Procedures,” chapter 6, “Property, Plant, and Equipment,” July 2006,
           contains the DoD accounting standards for Property, Plant, and Equipment. The

3
    DFAS Indianapolis is located in Indianapolis, Indiana.



                                                       2
           regulation establishes the requirements for capitalizing and depreciating real
           property assets. Except for land and CIP, DoD entities must depreciate real
           property assets during their useful lives.


DoD Initiatives
           For many years, DoD has had significant problems accounting for real property
           assets. DoD real property managers have recognized the need for standardized
           data elements and processes to reduce redundancy and other inefficiencies,
           address material weaknesses, and enhance asset accountability. In
           November 2003, the Deputy Under Secretary of Defense (Installations and
           Environment) (DUSD[I&E]) established a real property working group to develop
           uniform requirements to capture and process real property transactions. The
           working group issued three documents addressing standard processes, data
           elements, and business rules for real property inventory, acceptance, and CIP. 4
           Since January 2006, ACSIM has implemented many policy and system changes to
           bring IFS into compliance with the new DoD requirements.


Objectives
           The overall audit objective was to determine whether controls over AWCF real
           property assets were in place and providing reasonable assurance that the AWCF
           organizations had proper asset management. This is the first of two reports
           concerning the controls over AWCF real property assets. This report will
           specifically address whether Army entities had effectively implemented the DoD
           preponderance-of-use policy and whether the interfaces in place between the real
           property management and accounting systems provided reasonable controls over
           the financial reporting of real property assets. To help assess the business process
           used by AWCF entities for real property transactions, we compared it with the
           process used for AGF entities. The second report will address the remaining
           announced audit objectives concerning controls over additions, deletions, and
           improvements to real property assets; and the availability of documentation
           needed to support real property records. See Appendix A for a discussion of the
           scope and methodology and for prior coverage related to the objectives.


Review of Internal Controls
           We identified material internal control weaknesses for the Army as defined by
           DoD Instruction 5010.40, “Managers’ Internal Control Program Procedures,”
           January 4, 2006. We reviewed the internal controls related to the processing of
           data between real property management and accounting systems. Army did not

4
    The DUSD(I&E) issued the following documents to improve real property controls: “Real Property
    Inventory Requirements,” January 2005; “Real Property Acceptance Requirements,” August 2006; and
    “Construction-In-Progress Requirements,” September 2006.

                                                   3
have sufficient internal controls in place to ensure that the subsidiary ledger
source data contained in real property management systems supported the real
property values reported on its AWCF and AGF financial statements. The Army
also did not maintain sufficient controls over the real property cost information
transferred between the accounting and property management systems. The
Army recognized the reliability of property, plant, and equipment values as an
area of concern in its FY 2007 Annual Statement of Assurance.
Recommendations B and C, when implemented, will improve the processing of
AWCF real property transactions. We will provide a copy of the final report to
the senior Army official responsible for internal controls.




                                    4
                    A. DoD Preponderance-of-Use Policy
                    The DoD preponderance-of-use policy and Army practices for reporting
                    AWCF and AGF real property assets did not comply with accounting
                    principles generally accepted in the United States (GAAP). Specifically,
                    the DoD preponderance-of-use policy did not ensure that DoD entities:

                             •    reported assets on the controlling entity’s financial statements; 5

                             •    allocated costs to the appropriate users based on their use of
                                  assets; and

                             •    disclosed costs incurred which were paid in total or in part by
                                  other entities as prescribed by DoD FMR, volume 4,
                                  chapter 17, “Expenses and Miscellaneous Items.”

                    The DoD preponderance-of-use policy was noncompliant with GAAP
                    because it perpetuated a previously established accounting convention that
                    GAAP does not recognize. In addition, the Army installations had
                    misinterpreted and incorrectly implemented the DoD preponderance-of-
                    use policy. As a result, the Army did not prepare its financial statements
                    in accordance with GAAP. The Army misstated the acquisition cost of
                    real property assets on the FY 2006 AWCF and AGF financial statements
                    by $424.3 million.


Preponderance-of-Use Requirements
           DoD FMR, volume 4, chapter 6, states that legal ownership is usually, but not
           always, the primary factor for determining which DoD Component recognizes a
           real property asset for accounting and financial statement reporting purposes. The
           regulation contains a policy that requires the “preponderant user” of an asset to
           report the total value of the asset and associated costs on its financial statements.
           When there is more than one user of an asset, the user that has the greater
           percentage of usage (square footage for real property) normally will be the
           preponderant user.

           The DoD FMR applies the preponderance-of-use policy differently depending on
           whether the preponderant user is a Military Department general fund, Defense
           general fund, or a Defense working capital fund entity. When a working capital
           fund entity is the preponderant user of a real property asset under the jurisdiction
           of a Military Department, the working capital fund entity reports and depreciates
           the asset on its financial statements.




5
    See Appendix B for a definition of controlling entity.

                                                        5
Compliance with Accounting Principles
    The DoD preponderance-of-use policy does not comply with GAAP as
    established in Statement of Federal Financial Accounting Standards (SFFAS) No.
    4, “Managerial Cost Accounting Concepts and Standards for the Federal
    Government,” July 31, 1995. The lack of a systematic cost accounting process
    resulted in the introduction of the DoD policy as an interim solution to account
    for the cost of real property assets. The policy inappropriately allowed DoD
    entities to report real property assets on their financial statements when they did
    not fund the construction or financially document their assumption of control over
    the assets. In addition, the policy required the preponderant user to record the full
    value of the assets on its financial statements, including the cost of operations
    incurred by other users. This policy overstated the cost of operations of the
    preponderant user and understated the cost of operations for both the entity
    having financial control over the asset and other users of the asset. Furthermore,
    the DoD FMR did not require the preponderant user to report on its financial
    statement the financing source for the assets used.

    Although DoD FMR, volume 4, chapter 17, provided guidance on the reporting of
    imputed costs, the preponderance-of-use policy established in DoD FMR,
    volume 4, chapter 6, did not direct the imputing of the costs associated with real
    property assets when an entity who does not control the asset benefits from use of
    the asset. Furthermore, the DoD policy for asset recognition did not clearly
    define the concept of asset control, or ensure that the correct entity recorded the
    asset on its financial statements. In most cases, the entity that funds an asset is
    the controlling entity, unless it formally transfers the financial control of the asset
    to another entity after placing the asset in service.

    The Government Accountability Office (GAO), in its January 20, 2000,
    memorandum regarding changes to DoD FMR, volume 4, chapter 6, stated that
    under the DoD preponderance-of-use policy, the preponderant user of an asset,
    not necessarily the owner, would report the asset on its balance sheet and
    depreciation on its statement of net cost. The memorandum also stated that
    although GAO supported this policy in a previous version of the DoD FMR,
    SFFAS No. 4 did not reflect this accounting convention, and the policy was not
    compliant with GAAP.

    SFFAS No. 4 requires an entity to report the full cost of its outputs in its financial
    statements, including any costs incurred on its behalf, such as the cost to use real
    property assets. The costs should include the sum of:

             •   the cost of resources consumed that directly or indirectly contribute
                 to the output and

             •   the cost of identifiable supporting services provided by other
                 entities, known as inter-entity costs.

    SFFAS No. 4 specifies that receiving entities should recognize any material inter-
    entity costs that they do not fully reimburse to the provider at full cost. In other
    words, the receiving entity should recognize the difference between any costs


                                          6
           incurred on its behalf by another DoD entity and any actual reimbursement it
           makes to that entity as an imputed financing source. The receiving entity also
           should record a corresponding imputed cost for costs not reimbursed.

           Pending Change in Policy. The working group developing the Department’s
           Real Property Inventory Requirements recognized the need to develop a
           long-term solution that would provide the capability to allocate the cost of real
           property assets basis to each user on a prorated regardless of funding source, in
           accordance with SFFAS No. 4. In June 2007, the Office of the Under Secretary
           of Defense (Comptroller)/Chief Financial Officer (OUSD[C]/CFO), Accounting
           and Finance Policy Directorate, formed a work group to evaluate the issue. On
           May 24, 2007, we issued a memorandum, “Replacing Preponderance-of-Use
           Policy with Imputed Costing,” (Appendix D) that recommended the rescission of
           the DoD preponderance-of-use policy and the development of a costing
           methodology for the financial reporting of all real property assets that was in
           accordance with SFFAS No. 4. The costing methodology must allocate cost data
           to the appropriate entities based on their use of real property assets. Furthermore,
           the users should recognize the cost of the real property by either fully reimbursing
           the cost to the entity holding jurisdiction over the asset or by recognizing any
           unreimbursed portion as an imputed financing source and expensing a
           corresponding imputed cost in their financial statements.

           Implementing a Revised Real Property Reporting Process. Rescinding the
           DoD preponderance-of-use policy would require the Military Departments to
           reassess how they report real property assets. Initially, the DoD Office of
           Inspector General and other entities expressed concerns that the reporting of real
           property assets on Defense agency or Defense working capital fund financial
           statements would violate section 2682, title 10, United States Code. 6 However, in
           September 2007, the OUSD(C)/CFO obtained a legal opinion that clarified that
           the financial reporting of real property assets was separate from the requirements
           contained in section 2682. Therefore, Defense agencies or Defense working
           capital fund entities can financially report real property assets.

           Based on this guidance, the OUSD(C)/CFO should rescind the current DoD
           preponderance-of-use policy and establish business rules for implementing a
           costing methodology for recording DoD real property assets. The business rules
           should clearly define the concept of financial control over real property assets and
           require DoD entities that financially control assets to report them on their
           financial statements. The business rules should also require entities to report any
           capital improvements procured with their funds and require the entity that
           financially reports an asset to comply with the imputed costing requirements
           contained in DoD FMR, volume 4, chapter 17, by providing other users of the
           asset with a notification of the imputed costs associated with their use.

           Implementing this full costing methodology to report Military Department real
           property assets procured using Military Department funds would require that:


6
    Real property facilities under DoD jurisdiction that are used by a DoD entity or agency (other than a
    Military Department) are under the jurisdiction of a Military Department designated by the Secretary of
    Defense.

                                                       7
                    •   the Army report assets procured with appropriated funds as part of the
                        AGF financial statements and assets procured with working capital
                        funds on the AWCF financial statements, unless formal transfer of
                        control to another entity occurs after placing an asset in service;

                    •   the Army identify the costs incurred by the controlling entity for the
                        benefit of other users and allocate those costs to the appropriate users;
                        and

                    •   the non-controlling entities either reimburse the controlling entity for
                        their portion of the costs or record any unreimbursed costs as an
                        imputed cost.

           When a Defense agency or a Defense working capital fund entity spends its funds
           to construct an asset it will control, the Defense agency or defense working
           capital fund entity should report the asset in its financial statements and transfer
           accountability to a Military Department only when the entity places the asset in
           service.


Army Implementation
           Army practices for reporting AWCF and AGF real property assets did not comply
           with GAAP. The Army tried to implement the DoD preponderance-of-use policy,
           but few real property personnel at the five AWCF installations we visited
           understood how to interpret or implement the policy. Real Property
           Accountability Officers (RPAOs) at AWCF installations, who entered real
           property information in IFS, incorrectly believed that they should report all the
           assets they accounted for as AWCF assets.

           AGF Assets Reported by AWCF. Industrial Operations activity group
           installations erroneously reported the acquisition costs of AGF real property
           assets in IFS. Based on our review of real property data at six AWCF
           installations, the Army misstated both the AWCF and AGF financial statements
           by $424.3 million as of September 30, 2006 (see Appendix A for the dollar value
           of errors by installation). 7 The RPAOs at these AWCF installations should have
           determined that AGF entities paid for and occupied these buildings and structures.
           Based on this information, they should have entered users’ unit identification
           codes in the proper IFS field. However, the Army did not ensure compliance with
           the guidance on how to determine the correct financial reporting requirement for
           the asset. For example,

                    •   The Anniston Chemical Disposal Facility, an AGF entity, is the
                        preponderant user of 28 real property assets at Anniston Army Depot,
                        Alabama. The Anniston Chemical Disposal Facility constructed the
                        assets using appropriated funds and solely occupied the facilities.

7
    In addition to the five installations we visited (Rock Island Arsenal, Tobyhanna Army Depot, Anniston
    Army Depot, Corpus Christi Army Depot, and Crane Army Ammunitions Activity), we reviewed real
    property data from Pine Bluff Arsenal.



                                                      8
               However, the Army reported the cost of the 28 assets on the AWCF
               financial statements instead of the AGF financial statements. As a
               result, the Army misstated the acquisition cost of real property assets
               on both the AWCF and AGF financial statements by $155.5 million.

           •   The Army Reserve Command, an AGF entity, was the occupant of a
               building at Tobyhanna Army Depot, Pennsylvania, built with AGF
               funds. The Army incorrectly reported the building as an AWCF asset.
               As a result, the AWCF financial statements were overstated by
               $1.7 million, the acquisition cost of the building, and the AGF
               financial statements were understated by $1.7 million.

    The inability to identify the correct reporting entity at Army installations is a
    systemic problem and may have caused the misreporting of additional AGF
    facilities located on other AWCF installations. For example, Note 10 to the
    FY 2005 AWCF Financial Statements reported an increase in the acquisition cost
    of real property assets by $267.1 million because of the construction of a
    chemical disposal facility at the Pine Bluff Arsenal, Arkansas. Installation
    personnel and ACSIM should have identified the chemical disposal facilities,
    which are funded with chemical demilitarization appropriations, as AGF assets
    when they placed them into service. Based on this audit, the Army Budget Office
    directed the Anniston Army Depot and Pine Bluff Arsenal to prepare journal
    vouchers to remove these facilities from the AWCF and report them as part of the
    FY 2007 AGF Financial Statements. In addition, it validated that all other
    chemical disposal facilities were reported correctly in the AGF financial
    statements. ASA(FM&C) needs to identify any other facilities located at the
    13 AWCF installations funded and used by an AGF entity and report them on the
    AGF financial statements.

    AWCF Assets Reported by the AGF. AWCF entities did not accurately report
    the cost associated with their use of real property assets at AGF installations.
    ACSIM designed an indicator to identify which entity was to financially report
    the asset. However, IFS did not use the controlling entity’s information to
    automatically populate that indicator. As a result, IFS did not send DCD/DCW
    correct information for determining the controlling entity and reporting on the
    appropriate financial statements. For example, the Tobyhanna Army Depot’s
    Forward Repair Activity, an AWCF entity, was the preponderant user of a
    building at Fort Hood, Texas. When the RPAO entered the acquisition cost
    ($269,046) of the building in the IFS database, IFS populated the indicator as
    AGF. To comply with GAAP, the Army should have transferred control of the
    asset or recorded an imputed financing source.


Conclusion
    The OUSD(C)/CFO should rescind the DoD preponderance-of-use policy and
    establish new business rules defining the requirements for implementing a real
    property reporting and costing methodology that fully complies with GAAP.
    DoD must be able to determine the proper controlling entity for each real property
    asset and ensure that the entity reports each asset in its financial statements. The

                                         9
    controlling entity needs to identify the users of its assets and either bill the
    associated costs or notify the users of the costs incurred on their behalf. The user
    should either reimburse the controlling entity or record an imputed cost and an
    imputed financing source for the benefit received.

    The Army should not expend resources to develop an IFS system change to
    correct identified problems. Instead, it should work with the OUSD(C)/CFO to
    establish a policy that complies with GAAP and distributes costs to the users of
    real property assets either directly or through the use of imputed financing. Once
    developed, the Army needs to train its RPAOs and financial managers on business
    rules established to comply with GAAP and monitor user compliance with the
    new real property costing methodology.


Recommendations, Management Comments, and Audit
  Response
    A.1. We recommend that the Under Secretary of Defense
    (Comptroller)/Chief Financial Officer rescind the DoD preponderance-of-use
    policy and establish business rules for implementing a real property costing
    methodology that complies with Statement of Federal Financial Accounting
    Standards No. 4. Specifically:

           a. Require Military Departments to report on their General Fund
    financial statements all real property assets constructed using their
    appropriated funds.

            b. Direct the Military Departments to notify users of the costs
    incurred for their use of DoD real property assets, and direct the users to
    either reimburse the Military Department for their use of the asset or record
    any unreimbursed portion as an imputed cost from an imputed financing
    source.

    Under Secretary of Defense (Comptroller) Comments. The Deputy Chief
    Financial Officer partially concurred and stated that by September 30, 2008, his
    office would update the DoD FMR with new business rules for defining financial
    control over real property assets and implementing an imputed costing
    methodology that complies with SSFAS No. 4. He also stated that scenarios for
    real property reporting and imputed costs would be developed and added to the
    DoD FMR. However, he stated that these actions would not constitute the
    rescission of policy.

    Audit Response. The Deputy Chief Financial Officer’s comments are
    responsive. The policy contained in DoD FMR, volume 4, chapter 6, does not
    comply with the requirements of SSFAS No. 4. The OUSD(C)/CFO plans to
    establish business rules to instruct DoD Components on how to determine which
    entity has financial control over real property assets and should report the assets
    on its financial statements in compliance with SFFAS No. 4. Development of




                                         10
these business rules will require a substantial change to the guidance in the DoD
FMR. We do not require additional comments on the final report, but we will
closely monitor policy changes during the audit followup process.

Army Comments. Although not required to comment, the Deputy Assistant
Secretary of the Army (Financial Operations) stated that the Army will establish
business rules to implement the imputed costing methodology issued by the
OUSD(C)/CFO.

A.2. We recommend that the Assistant Secretary of the Army (Financial
Management and Comptroller):

      a. Identify the facilities located at the 13 Army Working Capital
Fund installations funded by the Army General Fund and report them on the
Army General Fund financial statements.

        b. Train installation financial managers and Real Property
Accountability Officers and then ensure that they comply with the business
rules that the Under Secretary of Defense (Comptroller)/Chief Financial
Officer establishes for implementing a real property costing methodology.

Army Comments. The Deputy Assistant Secretary of the Army (Financial
Operations) concurred and stated that his office would work with ACSIM to
record facilities on the correct financial statements. They will also jointly work to
train real property personnel on the costing methodology issued by the
OUSD(C)/CFO and seek training opportunities within the financial and real
property communities.




                                     11
            B. Subsidiary Ledger File Supporting
               Army Real Property Transactions
            The Army did not implement a common business process for creating a
            subsidiary ledger file to support the property management and financial
            reporting of AWCF and AGF real property assets. The Army modified
            IFS to expand capabilities for AGF installations, but it did not implement
            similar capabilities for AWCF installations because they were already
            using DPAS to:

                    •   calculate depreciation on real property assets that met
                        capitalization requirements,

                    •   maintain the real property financial transactions, and

                    •   report the financial transactions to the accounting systems.

            Maintaining two different business processes was inefficient and resulted
            in inaccurate and incomplete real property data in subsidiary ledger files.


Subsidiary Ledger File
     Historically, the Army has used a variety of data calls and other methods to report
     real property data on its financial statements. ACSIM and the ASA(FM&C)
     initially attempted to use DPAS to compute depreciation and perform financial
     reporting of all AWCF and AGF real property. IFS recorded the source data and
     passed the data to DPAS using a system interface. In Report No. AA 01-358,
     “Audit of the Integrated Facilities System for Financial Management System
     Compliance,” June 28, 2001, the U.S. Army Audit Agency determined that IFS
     did not substantially comply with the Federal Financial Management
     Improvement Act because the system did not provide sufficient audit trails, use
     required data elements, or comply with all financial management system
     requirements. However, the U.S. Army Audit Agency reported that the IFS
     interface with DPAS had compensated for several of the financial management
     system requirements. In addition, the U.S. Army Audit Agency recognized that
     IFS was the source of the real property financial data, and IFS must have the
     capability to maintain proper audit trails.

     In May 2003, the Office of the Secretary of Defense approved the Army’s request
     to modify IFS functionality to allow the system to calculate depreciation and run
     financial reports directly from each installation’s database so that the IFS system
     interface with DPAS would no longer be used. The Army reported in its FY 2004
     Annual Statement of Assurance that the IFS interface with DPAS did not ensure
     accurate reporting of real property on the Army financial statements and that the
     approved changes to IFS would correct the material weakness. In July 2005, the
     Army implemented IFS System Change Package 16 to make IFS the source of
     real property subsidiary data and make it compliant with the Federal Financial
     Management Improvement Act.


                                         12
           DoD FMR, volume 6A, “Reporting Policy and Procedures,” chapter 2, “Financial
           Reports Roles and Responsibilities,” March 2002, requires DoD Components to
           reconcile subsidiary ledger files to the financial balances. The subsidiary ledger
           file produces transaction data needed for the general ledger. The transaction
           amounts from the subsidiary ledger file must be reconcilable to the financial
           statements by general ledger account code (GLAC). The subsidiary ledger file
           should identify each real property asset’s location, quantity, acquisition date, cost,
           useful life, and other information.

           Federal Financial Management Systems Requirements, “Property Management
           Systems Requirements,” October 2000, requires real property systems to record
           beginning balances, acquisitions, withdrawals, and ending balances. For
           capitalized real property, the systems must classify assets by asset type, record
           acquisition costs and useful lives, and be able to calculate depreciation. (Finding
           C discusses the need for DoD accounting systems to send the acquisition costs to
           IFS.)


Common Transaction Processing
           ACSIM and ASA(FM&C) did not develop a common business process to create a
           subsidiary ledger file of real property data that supports the amounts reported in
           the AWCF and AGF financial statements. Although the Army required similar
           information to support amounts reported on its AWCF financial statements,
           ACSIM did not implement all of the System Change Package 16 changes within
           the 13 AWCF databases. Specifically, the AWCF databases:

                   •   did not calculate depreciation;

                   •   did not record auditable capitalization and depreciation related
                       accounting information; and

                   •   did not report acquisition, improvement, and disposition transactions
                       to the Army financial statements through the DCD/DCW. 8

           Instead, the Army used the information from IFS as the AGF subsidiary ledger
           file, but it required the information from both IFS and DPAS to produce the
           AWCF subsidiary ledger file. ACSIM continued to use DPAS to depreciate and
           report AWCF real property assets because DPAS had the capability to send
           financial data directly to the AWCF accounting systems in support of installation-
           level financial reporting. However, both IFS and DPAS contained inaccurate real
           property data, and neither system had complete AWCF subsidiary ledger files.
           As a result, the Army did not have a central repository for AWCF and AGF real
           property subsidiary data, and it was inefficient and costly to maintain two
           different business processes. In addition, ACSIM created a system control
           weakness by designing an IFS interface with DPAS that created the opportunity
           for some tenants at Army installations to bypass IFS system controls.

8
    DCD/DCW is part of the information system known as Business Enterprise Information Services.

                                                   13
Accuracy and Completeness of Real Property Data
The Army did not have an accurate and complete subsidiary ledger file for AWCF
real property assets. Real property personnel did not always enter real property
assets in IFS and routinely send the records to DPAS for depreciation and
financial reporting. Furthermore, real property personnel and resource managers
did not reconcile their data to ensure that the subsidiary ledger files supported the
GLAC totals in the accounting systems (SIFS and LMP). Our review of five
AWCF installations revealed that:

       •   real property personnel did not ensure that IFS routinely sent complete
           and accurate data to DPAS,

       •   DPAS did not return timely data to IFS,

       •   reconciliations between subsidiary ledger files and information in
           accounting systems were inadequate and inefficient, and

       •   DPAS users could bypass IFS system controls and update property
           management records.

As a result, neither IFS nor DPAS served as an accurate and complete subsidiary
ledger file to support the values reported on the AWCF financial statements.

Completeness of DPAS Data. AWCF real property personnel did not routinely
keep DPAS updated with current and complete real property records. On a daily
basis, real property personnel entered new and updated real property records in
the “DPAS window” in IFS for assets meeting the capitalization threshold. At
least once a month, they sent an IFS real property file to DPAS as part of the IFS
system interface with DPAS. However, one of the five installations visited did
not send all appropriate real property records from IFS to DPAS. Another
installation did not use either IFS or DPAS as its subsidiary ledger file.

       •   The RPAO at Corpus Christi Army Depot, Texas, did not understand
           how to populate the “DPAS window” in IFS. Consequently, IFS did
           not send the costs for two buildings placed in service in March 2004 to
           DPAS. As a result, the AWCF understated the acquisition cost
           reported in the AWCF financial statements by $1.4 million.

       •   Crane Army Ammunition Activity, Indiana, did not use IFS to account
           for its real property. Instead, they used a flawed manual method to
           record real property assets and calculate depreciation. Since FY 2002,
           this organization has manually sent $96 million in real property
           acquisition costs and $77.8 million in accumulated depreciation
           directly to SIFS, bypassing DPAS. As a result, neither DPAS nor IFS
           maintained subsidiary data for this installation.

Timeliness of DPAS Data Updates. ACSIM did not establish a specific cutoff
date for installations to send new and updated capitalization records from IFS to




                                     14
           DPAS for depreciation purposes. 9 Either ACSIM systems personnel or a local
           installation database administrator initiated the IFS system interface with DPAS.
           ACSIM systems personnel ran the IFS system interface with DPAS twice a week
           for four AWCF installations and upon request for another AWCF installation. At
           the other seven AWCF installations that used DPAS, the local database
           administrators determined the date to run the IFS system interface. By allowing
           installations to determine when to run the IFS system interface, installations
           updated DPAS and retrieved depreciation amounts on different dates. If systems
           personnel do not run the IFS system interface with DPAS by a certain time each
           month, DPAS may not have the most recent additions, improvements, and
           deletions of real property assets for use when calculating monthly depreciation.
           As a result, ACSIM cannot ensure that installations have reported the appropriate
           accumulated depreciation balances during the accounting period and that the
           subsidiary data contained in IFS will agree with the accounting systems. As of
           September 30, 2006, the IFS database for Anniston Army Depot listed an
           accumulated depreciation balance that was $992,060 less than what DPAS had
           reported for use in the AWCF financial statements. The difference was caused by
           IFS not updating the depreciation amounts for 350 real property assets until the
           installation ran the interface update cycle with DPAS. Because not all
           installations ran the cycle at least monthly, this discrepancy could actually be
           greater. For example, the accumulated depreciation recorded in IFS and DPAS
           for several of the assets at Tobyhanna Army Depot differed by 2 months.

           Accumulated Depreciation Totals. IFS did not contain accurate accumulated
           depreciation balances because DPAS did not always update IFS after adjusting
           depreciation amounts. Our comparison of DPAS and IFS files for the 13 AWCF
           installations identified 174 real property records that had an accumulated
           depreciation balance of $0 in DPAS, but which had an accumulated depreciation
           balance in of $66.5 million in IFS as of September 30, 2006. Over time, as real
           property personnel realized that they had erroneously capitalized repair costs or
           assigned costs to the wrong facility, they removed the acquisition costs of
           174 records from IFS. IFS then passed the correction to DPAS, which
           subsequently removed the corresponding accumulated depreciation. However,
           DPAS did not return an updated record to IFS indicating the $0 accumulated
           depreciation amount. Because IFS did not send the 174 records to DPAS
           (because IFS had reduced the asset’s acquisition costs to $0 and dropped it below
           the capitalization threshold), the records were not part of the reconciliations
           between IFS and DPAS. As a result, managers did not identify the discrepancies,
           and the subsidiary files in IFS did not match the financial balances in DPAS.

           Reconciling Real Property Data. Reconciliations between the subsidiary ledger
           files and information in the AWCF accounting systems were inadequate and
           inefficient. Each month, DPAS sent reconciliation reports to installation
           personnel indicating discrepancies between IFS and DPAS data. However,
           installation personnel at three of the five installations visited did not reconcile the
           IFS and DPAS data. In addition, installation personnel conducted monthly
           reconciliations between the general ledger data recorded in DPAS with the GLAC
           totals recorded in SIFS and LMP. However, neither of the reconciliations was
           sufficient to identify differences such as the accumulated depreciation errors in
9
    Capitalization records are the real property transactions created by IFS.

                                                        15
IFS and the records not in DPAS. In addition, performing two reconciliations was
inefficient. Removing DPAS from the business process will reduce the need for
multiple reconciliations and will increase the accuracy of IFS as a subsidiary
ledger file.

System Controls over Real Property Data Entry. One of the files in the IFS
interface with DPAS had the capability to bypass IFS system controls established
to ensure the accuracy of real property data. Some tenants on Army installations
had DPAS access that allowed them to enter improvement records into DPAS,
which IFS used to update the real property database. This process bypassed
established controls designed to ensure that RPAOs review and support all real
property updates in IFS. Although our review of the IFS files did not indicate that
the AWCF installations had used this DPAS interface since 1999, the interface
file was still available for use and circumvented IFS system controls. The
removal of DPAS from the business process will allow ACSIM to eliminate the
unnecessary risk introduced by the ability of DPAS to update IFS improvement
records.

Complete Army Real Property Database
The Army has not developed a central repository to consolidate the subsidiary
data that supports the value of real property assets reported on AWCF financial
statements. However, the Army has developed a real property initiative to use
DCD/DCW as the central repository for all real property financial transactions
until it can finish fielding LMP and develop and deploy the General Fund
Enterprise Business Systems (GFEBS) for AGF accounting. System Change
Package 16 implemented the capability for IFS to send real property subsidiary
data to DCD/DCW. IFS began to send the data from the 147 AGF databases to
DCD/DCW in September 2006.

DFAS plans to use AGF information from DCD/DCW to generate trial balances
for departmental reporting and provide Army managers with information to make
informed decisions. ACSIM expected DPAS to send similar data from the
13 AWCF databases to DCD/DCW. However, DPAS system managers did not
send the data to DCD/DCW because they believed that ACSIM was sending the
AWCF real property financial transactions to DCD/DCW.

The Army should standardize the business process for financial reporting of all
AWCF and AGF real property assets. By reconciling and sending all AWCF and
AGF real property financial transactions to DCD/DCW, the Army could establish
a consistent interim method of supporting the real property values reported on its
financial statements. In addition, AWCF entities could then retrieve from
DCD/DCW any real property financial transactions needed to support installation
financial reporting requirements. Once this occurs, the Army can terminate the
use of DPAS as a real property management system. In the long term, the Army
must integrate IFS with GFEBS and LMP in order to report real property
information at the installation level. In the interim, ACSIM should send AWCF
real property information to DCD/DCW.




                                    16
Conclusion
    The Army has not implemented a common business process to collect and report
    AWCF and AGF real property asset transactions. Instead, the Army implemented
    different processes for depreciating and reporting AWCF and AGF real property
    assets. Neither DPAS nor IFS contained accurate subsidiary ledger data that fully
    supported the values the Army reported for real property on its FY 2006 AWCF
    and AGF Financial Statements. The Army needs to use IFS to calculate
    depreciation, maintain subsidiary ledger files, and report financial information on
    both AWCF and AGF real property assets. The Army would eliminate the
    problems with maintaining accurate and complete information in DPAS if it
    terminated the system interface between IFS and DPAS and used IFS to calculate
    depreciation and report financial information for AWCF real property assets.
    However, the Army still needs to:

           •   establish a standard cutoff date for updating capitalization records and
               calculating depreciation;

           •   perform a comprehensive reconciliation among IFS, DPAS, and the
               accounting systems real property data to ensure that the subsidiary
               records are accurate and complete; and

           •   conduct recurring reconciliations between subsidiary ledger files in
               IFS and information reported to AWCF accounting systems.

    Standardizing the business process will help to ensure that Army installations
    maintain accurate and complete real property subsidiary files that support the
    values reported on the financial statements and allow the Army to better use
    available resources. ACSIM, in conjunction with DFAS, should use DCD/DCW
    to collect and report all Army-managed real property data until the Army can
    develop a standard business process that integrates the subsidiary ledger
    information in IFS with the Army’s two new accounting systems (GFEBS and
    LMP).


Recommendations, Management Comments, and Audit
  Response
    B.1. We recommend that the U.S. Army Assistant Chief of Staff for
    Installation Management, Assistant Secretary of the Army (Financial
    Management and Comptroller), and Deputy Director for Operations,
    Defense Finance and Accounting Service, develop an interim business
    process for financially reporting Army General Fund and Army Working
    Capital Fund real property assets. Specifically, the Army and Defense
    Finance and Accounting Service should:

           a. Use the Defense Finance and Accounting Service Corporate
    Database/Defense Finance and Accounting Service Corporate Warehouse as
    the subsidiary ledger file for Army-managed real property assets.
                                        17
       b. Establish a monthly cutoff date for updating capitalization
records, calculating depreciation, and recording the applicable financial
transactions to the appropriate trial balances that support the values
reported on the Army financial statements.

       c. Develop a process for Army Working Capital Fund entities to
retrieve from the Defense Finance and Accounting Service Corporate
Database/Defense Finance and Accounting Service Corporate Warehouse all
real property financial transactions needed to support installation financial
reporting requirements.

        d. Perform a comprehensive reconciliation among the Integrated
Facilities System, Defense Property Accountability System, and the
accounting systems real property data to ensure that subsidiary records are
accurate and complete.

      e. Require resource managers to periodically conduct reconciliations
between the subsidiary ledger files in the Integrated Facilities System and
information in the Army Working Capital Fund accounting systems.

       f. Upon full implementation of Recommendation B.1.c.:

               (1) Establish in the Army Working Capital Fund Integrated
Facilities System databases the ability to calculate depreciation on a specific
cutoff date, maintain subsidiary ledger files, and update the Defense Finance
and Accounting Service Corporate Database/Defense Finance and
Accounting Service Corporate Warehouse with all real property data.

               (2) Terminate the system interface between the Integrated
Facilities System and the Defense Property Accountability System and
discontinue using the Defense Property Accountability System for reporting
Army Working Capital Fund real property assets.

Army Comments. The Deputy Assistant Secretary of the Army (Financial
Operations), responding for ASA(FM&C) and ACSIM, partially concurred and
stated that uniform processing and reconciliation of AWCF real property assets
are part of the ongoing business transformation efforts and conversion to GFEBS.
He also stated that if a substantial delay in implementing GFEBS occurred, the
Army would incorporate interim business processes, such as DCD/DCW.

Defense Finance and Accounting Service Comments. The DFAS Director for
Indianapolis Operations nonconcurred and stated that we should redirect the
recommendation to the Business Transformation Agency. He stated that systems
development and initiatives, including DCD/DCW, were transferred to the
Business Transformation Agency in FY 2008.

Audit Response. The Army and DFAS comments are partially responsive. The
Army must improve existing processes for ensuring accurate subsidiary ledger
data. This recommendation also presents an interim solution for the Army to
improve the reporting of its real property assets until the Army fully implements



                                    18
GFEBS in FY 2011. We believe that the Army unnecessarily maintains two
distinct processes for reporting its real property assets that causes inconsistent and
inaccurate financial reporting of real property assets.

The Army has spent approximately $865,000 to develop the real property
initiative within DCD/DCW intended to standardize the processes for reporting
AWCF and AGF real property data. Both the Army and DFAS have
responsibility for using the data that DCD/DCW can provide to support
installation financial reporting requirements and the values reported on the
AWCF and AGF financial statements. The use of DCD/DCW as a near-term
solution would ease the transition to GFEBS and permit the Army to reconcile its
real property to the proper financial statements, uniformly depreciate its real
property assets, and develop financial statements with more accurate data. If the
Army does not use DCD/DCW, it still should establish uniform cutoff dates for
depreciation calculations; perform comprehensive reconciliations of real property
databases; and require periodic reconciliations of subsidiary ledger files to ensure
accuracy of current-year financial statements and effective implementation of
GFEBS. We request that the Army and DFAS reconsider their positions and
provide additional comments on the final report that address the need to improve
existing processes for ensuring accurate subsidiary ledger data and the use of
DCD/DCW as an interim solution until the Army implements GFEBS.

B.2. We recommend that the U.S. Army Assistant Chief of Staff for
Installation Management, in conjunction with the U.S. Army Program
Executive Officer, Enterprise Information Systems, develop plans to
integrate the Integrated Facilities System with the Logistics Modernization
Program system and the General Fund Enterprise Business System so that
the capability exists to generate a subsidiary ledger file at the installation
level that supports the Army General Fund and Army Working Capital
Fund financial statements.

Army Comments. The Deputy Assistant Secretary of the Army (Financial
Operations), responding for ACSIM, partially concurred and stated that the Army
plans for GFEBS to subsume IFS, making integration between IFS and GFEBS
unnecessary. In the meantime, the Army will continue to use IFS and DPAS to
calculate and report depreciation for AWCF real property assets.

Audit Response. The Army comments are partially responsive. We agree that
the integration of IFS with GFEBS is unnecessary, based on the Army’s recent
decision to subsume all real property accountability and accounting functions into
GFEBS. However, a requirement still exists to develop the appropriate system
integration needed between GFEBS and LMP to provide the LMP system with
the subsidiary ledger data it needs to support the real property values reported on
the AWCF installation trial balances. We addressed the need for the Army to
discontinue using DPAS for reporting AWCF real property assets in
Recommendation B.1. We request that the Army reconsider its position and
provide additional comments, in coordination with the Program Executive
Officer, Enterprise Information Systems, on the final report. The Army should
explain its plans and timeline to integrate GFEBS with LMP to provide the
financial information needed for AWCF installations to correctly report AWCF
real property assets.

                                     19
            C. Reliability of Acquisition Costs
            The Army did not accurately or efficiently transfer construction-in-
            progress (CIP) costs between accounting and property management
            systems. Specifically, the Army did not:

                    •   transfer CIP costs recorded in the general ledger accounts of
                        the construction agent to the accounting system of the entity
                        that placed the constructed asset in service,

                    •   use the CIP costs reported in the AWCF accounting systems to
                        record the acquisition cost of real property assets in IFS and
                        the general ledger asset accounts, and

                    •   record consistent accounting entries when placing an asset in
                        service.

            CIP costs were not properly transferred because the Army used a manual
            data entry process that was flawed to record the acquisition cost of its real
            property assets. As a result, Army resource managers could not ensure the
            accuracy and completeness of the acquisition costs of AWCF and AGF
            real property assets. In addition, the Army unnecessarily expended
            resources by performing duplicate data entry in the property management
            and accounting systems.


Reliability of the Cost of Real Property
     Financial Reporting. Reliable financial reporting of real property assets requires
     that accounting and real property management systems share information and that
     financial and real property managers cooperate with each other. Office of
     Management and Budget Circular No. A-127 requires the one-time entry of cost
     data and the subsequent transfer of that data between systems as needed. The
     acquisition cost, which includes all costs incurred to bring an asset to a form and
     location suitable for its intended use, is an important data element for the proper
     financial reporting of real property assets.

     Reporting Acquisition Costs of Constructed Assets. DoD managers
     recognized the need to improve their ability to accurately capture and report the
     full acquisition costs of constructed assets. In October 2006, the Deputy Under
     Secretary of Defense (Installations and Environment) (DUSD[I&E]) identified
     DoD requirements for implementing a more efficient CIP process in its
     “Construction-in-Progress Requirements” document. The document recognized
     that DoD entities construct assets using a variety of methods and required specific
     parties to maintain the CIP account. New construction, using either a DoD
     construction agent or installation construction personnel, is one of the Army’s




                                         20
           major acquisition methods for real property assets. 10 Depending on which DoD
           entity funds an asset’s construction, either the construction agent or the entity
           receiving the asset must accumulate the construction costs in its accounting
           system by project number, using a CIP account.

           To comply with Office of Management and Budget Circular No. A-127, Army
           accounting systems should have the ability to maintain a complete CIP account
           and automatically transfer costs accumulated in the CIP accounts to the
           appropriate GLAC accounts in the receiving installation’s accounting system.
           The accounting system should then be able to populate the acquisition value
           within the property management system when placing an asset in service. This
           process would strengthen audit trails and reduce the risk of error caused by
           manual intervention.

           Requirements for Recording CIP. DoD FMR, volume 4, chapter 6, provides
           guidance on how to account for and report CIP costs when DoD entities construct
           real property assets. CIP represents the internal and external costs associated with
           the project design, site preparation, and actual construction of a real property
           asset. Upon construction completion, if the CIP costs equal or exceed the DoD
           capitalization threshold, the entity is to transfer the CIP costs to the appropriate
           real property GLAC as the acquisition cost of a real property. To help determine
           whether the asset meets the DoD capitalization threshold, DoD entities should
           capture and accumulate CIP costs by individual real property asset. The DoD
           FMR requires DoD construction agents to accumulate costs for any constructed
           asset that will meet the capitalization threshold in a CIP account. 11 The DoD
           FMR requires the DoD entity that receives the constructed assets to report the CIP
           amounts on its financial statements.


Maintaining a Complete CIP Account
           The Army did not transfer CIP costs from construction agents to the AWCF
           installations that received the real property assets and failed to report CIP costs
           maintained by construction agents on the AWCF financial statements. For locally
           constructed assets, the AWCF accounting systems did not track all appropriate
           CIP costs by project number and unique asset identifier. The Army must
           maintain accurate and complete CIP balances to ensure the proper recording of
           real property assets on its financial statements.

           Recording of CIP Costs by a Construction Agent. The Army did not have the
           system functionality to transfer the CIP balance recorded in the U.S. Army Corps
           of Engineers (USACE) accounting system to the appropriate receiving entity’s
           accounting system. In addition, the Army erroneously reported all CIP costs
           accumulated by USACE on the AGF financial statements. USACE was the

10
      The major DoD construction agents are USACE and the Naval Facilities Engineering Command. Other
     approved DoD organizations also serve as DoD construction agents. USACE was the only construction
     agent to report CIP costs to DFAS for the Army.
11
      On March 13, 2006, DoD lowered the capitalization threshold from $100,000 to $20,000. The Army
     still uses the $100,000 capitalization threshold.

                                                    21
           primary construction agent used on Army installations. When USACE built
           Army real property assets on a non reimbursable basis, Army managers provided
           USACE with the authority to cite an Army appropriation directly to pay for the
           construction of the asset. During construction, USACE accumulated costs
           associated with construction in CIP accounts recorded in its accounting system,
           the Corps of Engineers Financial Management System. The CIP accounts tracked
           the costs incurred by project number and associated real property identifiers. On
           a quarterly basis, USACE provided the DFAS Departmental Accounting Branch
           with the amounts recorded in the Corps of Engineers Financial Management
           System CIP accounts that cited specific Army appropriations. DFAS personnel
           used this information to prepare journal vouchers that transferred the CIP costs to
           the AGF financial statements.

                   Installation Reporting. Transferring the CIP costs at the departmental
           level prevented installations from maintaining a complete and accurate record of
           real property costs. As a result, installation resource managers could not monitor
           and report these CIP amounts on their trial balance and did not have the
           information required to verify the acquisition costs when they placed the assets in
           service. USACE should have sent the costs recorded in its CIP accounts to the
           appropriate receiving entity’s accounting system. This would have provided a
           complete CIP balance for financial reporting and expedited asset transfer to the
           proper general ledger account upon acceptance. We recognize that developing
           this functionality in legacy systems is not cost-effective. However, as the Army
           develops and implements the Logistics Modernization Program (LMP) system
           and the General Fund Enterprise Business System (GFEBS), it should integrate
           systems functionality for installations to be able to receive CIP costs directly from
           any construction agent’s accounting system.

                   Departmental Reporting. The Army underreported CIP costs for assets
           constructed by USACE for AWCF entities. As discussed in Finding A, the DoD
           FMR preponderance-of-use policy required the preponderant user of an asset to
           report the acquisition amounts on its financial statements. Similarly, AWCF
           entities should have reported CIP costs associated with assets under construction
           for their use. The Army and DFAS incorrectly reported the CIP costs provided by
           USACE on the AGF financial statements, regardless of which Army entity
           received the assets. DFAS assumed that AGF should report the CIP costs because
           USACE used Army-appropriated funds to construct the assets. The Army did not
           inform DFAS of the CIP costs that DFAS should have reported on the AWCF
           financial statements. As of March 30, 2007, USACE had accumulated
           $13.4 million in CIP costs for construction projects at the five AWCF
           installations we visited. However, the DFAS Departmental Accounting Branch
           inappropriately reported the $13.4 million on the second quarter FY 2007 AGF
           financial statements, instead of on the AWCF financial statements. The Army
           may also have underreported the CIP costs accumulated by USACE for AWCF
           construction projects at the remaining eight AWCF installations. As we said in
           Finding A, the current DoD preponderance-of-use policy does not comply with
           SFFAS No. 4. 12 However, until DoD rescinds the preponderance-of-use policy,

12
      If DoD implements Recommendation A.1., then DFAS would be correct in reporting the $13.4 million in
     CIP costs on the AGF financial statements because the Army uses its appropriated funds to fund the
     construction. The AWCF entities would only report CIP costs funded using AWCF funding.



                                                    22
     ASA(FM&C), with support from DFAS, should develop a method to transfer the
     CIP costs accumulated by USACE to the receiving installation so that it can
     report the CIP value in the AWCF financial statements. Upon integration of the
     Army accounting systems, DFAS will no longer need to transfer the costs.

     Recording of CIP Costs by Army Installations. Army accounting systems did
     not record all CIP costs by project number and unique asset identifier when an
     Army installation used its local public works personnel to construct real property
     assets. According to the DoD FMR, volume 4, chapter 6, local resource managers
     should establish a CIP account in their accounting systems by project number and
     unique asset identifier to track all costs associated with construction. The
     accounting system should report these costs in the Construction-in-Progress
     account (GLAC 1720), until the installation places the asset in service.

              Standard Industrial Fund System. SIFS did not track CIP costs by
     project number and unique asset identifier. However, because the Standard
     Industrial Fund System (SIFS) is a legacy system and the Army is fielding LMP
     as its replacement, it would not be cost-effective to correct this problem in SIFS.
     Therefore, developing system functionality to correct the problem must occur as
     installations transfer to LMP.

             Logistics Modernization Program. LMP accumulated contract-related
     and other external construction costs in a CIP account by project in an Asset
     Under Construction record, but it did not record any internal costs, as required by
     the DoD FMR. The system posted daily disbursements made on purchase orders
     to the Operating Expense/Program Cost account (GLAC 6100). The purchase
     orders assigned the costs to specific capital spending projects or reported them as
     expenses. Daily, LMP transferred any costs recorded in GLAC 6100 assigned to
     a capital spending project to the Construction-in-Progress Buildings account
     (GLAC 1720.51). However, LMP did not identify and transfer internal costs,
     such as labor, incurred on capital spending projects. As a result, the CIP account
     did not contain all asset construction costs. As the Army develops and
     implements LMP and GFEBS, it should develop and implement the functionality
     to identify and track—at the project level—all internal costs related to asset
     construction. It should also develop functionality to post the costs to the
     appropriate CIP account so that complete and accurate acquisition-cost
     information is available for making capitalization decisions and financial
     reporting.


Establishing Acquisition Costs
     Neither LMP nor SIFS had the capability to transfer the CIP balance recorded in
     the accounting system to the Integrated Facilities System (IFS) when placing an
     asset in service and establishing acquisition costs in IFS. Instead, installation
     Real Property Accountability Officers (RPAOs) manually entered the acquisition
     cost in IFS based on an amount recorded on the DD Form 1354, “Transfer and
     Acceptance of Military Real Property” (prepared by the construction agent) and
     then transferred this data to the accounting system when placing the asset in
     service. This process unnecessarily expended resources to duplicate the data

                                          23
entry of acquisition costs and did not ensure that the Army maintained an
adequate audit trail to trace the recorded acquisition cost to the original cost data
recorded in the CIP accounts. Upon acceptance of an asset, the resource manager
should have updated the accounting system, by transferring the amount to the
GLAC associated with the type of asset constructed, and then recorded the
acquisition cost in the property management system, IFS. The following figure
shows how the current process for transferring CIP costs from USACE compares
to an integrated process that sends costs through LMP to IFS.

                                   Current Process

                         Upon asset
                         completion,
                                                Real property
 Construction            construction                             IFS updates the
                                                personnel
 agent accumulates       agent manually                           accounting system,
                                                enter the
 costs in a CIP          prepares DD                              which transfers CIP
                                                acquisition
 account by project      Form 1354.                               costs and places
                                                costs in IFS.
 number.                                                          asset in service.


                                   Integrated Process




 Construction                LMP tracks all CIP costs in a        IFS receives the
 agent accumulates           CIP account by unique asset          acquisition cost
 costs in a CIP              identifier. Upon asset               for the asset from
 account by project          completion, LMP places asset         LMP.
 number.                     in service.


Comparison of Process for Transferring CIP Costs from USACE

By sending acquisition costs directly from the accounting systems to IFS, the
Army would eliminate duplicate data entry—thus strengthening controls—
because the RPAO would no longer manually enter the costs from the
DD Form 1354 into IFS. The costs would readily trace to the source document,
such as a purchase order, already recorded in the accounting system. In addition,
this process would ensure proper separation of duties because resource managers,
instead of real property personnel, would initiate the recording of the cost
information that updates the financial records. We will address separation of
duties more fully as part of our second report.

Logistics Modernization Program
Although LMP could track CIP costs in an Asset Under Construction account, the
system only used this account to manage costs incurred by local real property
personnel. The system did not track CIP costs incurred by construction agents in
the Asset Under Construction account. Further, LMP did not use the CIP costs to


                                      24
establish the acquisition costs in IFS. Instead, real property personnel manually
entered the costs into IFS based on DD Form 1354. IFS then sent the costs to
DPAS, which created a financial transaction to debit the real property asset
accounts (GLAC 1730 or 1740) and credit the CIP subaccount
(GLAC 1720.9990). When the accounting system posted the final payment, LMP
reconciled the CIP account by clearing the balances in GLAC 1720.51 and
GLAC 1720.9990. Had construction agents transferred CIP costs to LMP, the
system would contain a complete record of CIP costs associated with an asset in
the appropriate Asset Under Construction account. Once the entity placed the
asset in service, LMP should have transferred the asset balance from the Asset
Under Construction account to the appropriate GLAC and populated the asset’s
acquisition cost in IFS. ACSIM should develop the functionality in IFS to use the
costs accumulated in the Asset Under Construction account as the asset’s
acquisition cost whenever an AWCF installation places an asset in service.
However, until that time the Army should allow only installation resource
managers to record acquisition costs within IFS based on the CIP costs recorded
in the accounting systems, including internal costs and costs incurred by
construction agents. This separation of duties would ensure the proper recording
of accounting transactions.

Standard Industrial Fund System
SIFS could not transfer CIP costs to IFS because the system did not accumulate
CIP costs by unique asset identifier. Until the Army replaces SIFS with LMP,
resource managers should enter project costs into IFS when placing an asset in
service. Furthermore, SIFS did not record the appropriate offsetting journal
vouchers to ensure the correct transfer of acquisition costs and the proper
elimination of inter-entity transactions at the DoD-wide level. SIFS erroneously
recorded an asset transferred in from others in the Unexpended Appropriation
account (GLAC 3100.20), instead of recording the transfer in the Financing
Sources Transferred In Without Reimbursement account (GLAC 5720). SIFS
used the financial transaction accounting code established by DPAS to determine
which GLACs to debit and credit when transferring real property assets.

When USACE transferred fully constructed real property assets to the Army,
USACE recorded an accounting entry in its accounting system that debited the
CIP - Contractor account (GLAC 1720.12) and credited the Financing Services
Transferred Out Without Reimbursement – Non-Corps account (GLAC 5730.13).
To offset this transaction, SIFS accounting personnel should have debited the
Buildings, Improvements, and Renovations account (GLAC 1730) or Other
Structures and Facilities account (GLAC 1740) and credited GLAC 5720.
Instead, SIFS entities credited GLAC 3100.20.

The DoD FMR, volume 11B, “Reimbursable Operations, Policy, and
Procedures – Working Capital Funds,” chapter 58, “Capital Assets,” December
1994, requires DoD entities to credit the Transfers In from Others Without
Reimbursement account (GLAC 3220). However, the DoD FMR does not
comply with the Treasury Department’s “U.S. General Standard Ledger
Supplemental No. S2 Treasury Financial Manual,” July 2006, which states that
entities must use GLAC 5720 to record an increase in the financing source when

                                   25
    an asset transfers in from others. The OUSD(C)/CFO should revise the DoD
    FMR to comply with the Department of Treasury’s guidance. DFAS and Army
    financial managers must ensure that DPAS and SIFS appropriately record the cost
    of assets transferred in from USACE in GLAC 5720 to ensure that the AWCF
    financial statements are accurate and identify all of the inter-entity transactions
    for elimination in the DoD financial statements.


Conclusion
    The AWCF did not identify accurate and complete CIP balances for all of its real
    property assets. Instead, the Army erroneously reported AWCF CIP costs on the
    AGF financial statements. The Army should automatically transfer CIP costs
    from the construction agent’s accounting system to the receiving entity’s
    accounting system. In addition, the ASA(FM&C), in coordination with the Army
    Program Executive Officer, Enterprise Information Systems, should develop the
    functionality in LMP to receive CIP costs from the construction agent’s
    accounting system. LMP must also accumulate all internal costs associated with
    the construction of an asset to provide a complete CIP balance. LMP could then
    transfer the total balance in the CIP account to the appropriate asset account
    within LMP and to IFS for use as the asset’s acquisition cost when placing the
    asset in service. This functionality should also be a system requirement for
    GFEBS.

    SIFS, an AWCF legacy accounting system, did not track CIP costs by project
    number and unique asset identifier. Instead of correcting this problem in a legacy
    system, Army resource managers should obtain the CIP balance from construction
    agents and enter the total acquisition costs in IFS when placing assets in service.
    In addition, SIFS did not post the appropriate accounting transactions in
    accordance with the Treasury Department’s U.S. Government Standard General
    Ledger posting rules when another entity transferred assets to it. SIFS
    erroneously credited the Unexpended Appropriations account, instead of crediting
    the Transfers-in Without Reimbursement account. Army financial managers must
    use the Transfers-in Without Reimbursement and Transfers-out Without
    Reimbursement accounts when receiving real property from a construction agent
    to ensure the proper elimination of transactions.


Recommendations, Management Comments, and Audit
  Response
    Revised Recommendation. As a result of management comments, we revised
    draft Recommendation C.4. to establish ASA(FM&C) as having the lead role in
    developing a method for transferring CIP costs to the appropriate AWCF
    installations.

    C.1. We recommend that the Under Secretary of Defense
    (Comptroller)/Chief Financial Officer update the DoD Financial
    Management Regulation, volume 11B, “Reimbursable Operations, Policy,


                                        26
and Procedures – Working Capital Funds,” chapter 58, “Capital Assets,” to
require DoD entities to record transfers-in of assets in general ledger
accounting code 5720, “Financing Sources Transferred In Without
Reimbursement.”

Under Secretary of Defense (Comptroller) Comments. The Deputy Chief
Financial Officer concurred and stated that his office would update the DoD
FMR, volume 11B, chapter 58, by September 30, 2008.

C.2. We recommend that the Assistant Secretary of the Army (Financial
Management and Comptroller), in conjunction with the Army Program
Executive Officer, Enterprise Information Systems, develop within the
Logistics Modernization Program and General Fund Enterprise Business
Systems, an integrated process to:

      a. Receive construction costs directly from any construction agent’s
accounting system.

        b. Record internal costs incurred in the construction of a capital asset
to the corresponding project’s Construction-in-Progress account.

Army Comments. The Deputy Assistant Secretary of the Army (Financial
Operations) concurred and stated that the Army will include processes for
recording CIP costs as part of the transformation to GFEBS. In the interim, the
Army will use the Headquarters Installation Information System to record and
send construction costs to the appropriate entity for financial reporting.

C.3. We recommend that the Assistant Secretary of the Army (Financial
Management and Comptroller), in conjunction with the Army’s Assistant
Chief of Staff for Installation Management, develop and implement a process
to establish an asset’s acquisition cost based on the costs previously
accumulated in the accounting systems’ Construction-in-Progress accounts.
Specifically:

       a. Develop the functionality in the Integrated Facilities System to use
the costs accumulated in the Logistics Modernization Program system’s
Asset Under Construction accounts as the asset’s acquisition cost whenever
an Army Working Capital Fund installation places an asset in service.

        b. Require resource managers to manually enter acquisition costs,
including any internal costs, in the Integrated Facilities System based on the
journal vouchers received from construction agents when placing an asset in
service. The Army should maintain this process until the Logistics
Modernization Program system has the functionality to do this and
installations using the Standard Industrial Fund System convert to that
system.

      c. Adjust the posting logic between the Defense Property
Accountability System and the Standard Industrial Fund System to record



                                    27
the cost of assets transferred in without reimbursement in general ledger
accounting code 5720, “Financing Sources Transferred In Without
Reimbursement.”

Army Comments. The Deputy Assistant Secretary of the Army (Financial
Operations) concurred with the recommendation and stated that his office will
work with the Army Materiel Command and the Program Executive Officer,
Enterprise Information Systems to develop the necessary requirements in the
LMP system and GFEBS. However, he stated that developing the functionality in
IFS to use the costs accumulated in the LMP system is unnecessary because
GFEBS will subsume IFS in FY 2011. Instead, the Army will reconcile real
property records and disclose any issues in its financial statements until
implementation of GFEBS. In addition, the Army will work with system
programmers to address the posting logic issue identified in Recommendation
C.3.c. by September 2008.

Audit Response. The Army comments are partially responsive. We agree that
the integration of IFS with LMP is unnecessary, based on the Army’s recent
decision to subsume all real property accountability and accounting functions in
GFEBS. However, the Army’s approach satisfies the intent of the
recommendation only if the Army restricts the ability to record acquisition costs
in IFS to installation resource managers, until the Army develops the required
functionality in LMP. The current functionality in IFS does not provide for the
proper separation of duties and ensure that financial transactions are correctly
processed. Until GFEBS implementation, resource managers need to validate and
populate the acquisition costs in IFS. We request that ASA(FM&C), in
coordination with ACSIM, provide additional comments on Recommendation
C.3.b.

C.4. We recommend that the Assistant Secretary of the Army (Financial
Management and Comptroller), in conjunction with the Director, Defense
Finance and Accounting Service, develop as an interim measure a method to
transfer the construction-in-progress costs accumulated by the U.S. Army
Corps of Engineers to the appropriate Army Working Capital Fund
installation receiving the related assets.

Army Comments. The Deputy Assistant Secretary of the Army (Financial
Operations) concurred and stated that his office will work with DFAS and the
U.S. Army Corps of Engineers to transfer the CIP costs to the appropriate AWCF
installation. In addition, he requested that we include a list of U.S. Army Corps
of Engineers projects identified as belonging to the AWCF as an appendix to the
final report.

Defense Finance and Accounting Service Comments. The Director for DFAS
Indianapolis Operations nonconcurred and stated that ASA(FM&C) should have
the lead on resolving the recommendation. Because the Army has stewardship
over the CIP balances, it must identify to DFAS which CIP balances each
installation should report. The Director also stated that DFAS will work with the
Army to jointly implement an interim method for transferring CIP cost balances
to the appropriate AWCF installations.



                                    28
Audit Response. The Army and DFAS comments are responsive. We agree that
ASA(FM&C) should take the lead on this recommendation. The Army has
responsibility for providing DFAS with the installation CIP balances for reporting
on the appropriate financial statements. The Deputy Assistant Secretary stated in
his comments on this recommendation that the Army will work with DFAS to
develop the approach for transferring CIP costs to the appropriate AWCF
installations. After reviewing the Army comments, we provided a detailed listing
of the U.S. Army Corps of Engineers projects to the Office of the Deputy
Assistant Secretary of the Army (Financial Operations).




                                    29
Appendix A. Scope and Methodology
   We conducted this performance audit from August 2006 through October 2007 in
   accordance with generally accepted government auditing standards. Those
   standards require that we plan and perform the audit to obtain sufficient,
   appropriate evidence to provide a reasonable basis for our findings and
   conclusions based on our audit objectives. We believe that the evidence obtained
   provides a reasonable basis for our findings and conclusions based on our audit
   objectives.

   We determined whether the system controls over the AWCF real property assets
   were in place and provided reasonable assurance that the AWCF real property
   information was accurate and complete. We evaluated the real property files
   transferred between the real property management and accounting systems.
   Specifically, we obtained the September 30, 2006, database files from the
   Integrated Facilities System (IFS), the Defense Property Accountability System
   (DPAS), the DFAS Corporate Database/DFAS Corporate Warehouse
   (DCD/DCW), and the related files from the Standard Industrial Fund System and
   the Logistics Modernization Program system. Using Audit Command Language
   software, we reviewed the complete 2006 fiscal year-end database of AWCF
   accountability files to identify discrepancies. We compared the universe of IFS
   records to DPAS and DCD/DCW records to understand the flow of data between
   Army real property systems. Based on the results of our data analysis, we
   identified system control weaknesses, missing and erroneous data, and
   unnecessary manual intervention in the process.

   We reviewed system manuals and interviewed U.S. Army Assistant Chief of Staff
   for Installation Management (ACSIM) personnel to understand the real property
   process and system interfaces. We compared the IFS data files with the IFS
   system manuals and documented any differences between what we expected and
   what existed in the IFS data files. We obtained documentation from ACSIM
   personnel about planned IFS changes and interviewed systems personnel
   concerning IFS current and future capabilities. We also reviewed the IFS system
   manuals to identify internal controls built into the system. Specifically, we
   reviewed the IFS system controls designed to ensure valid financial data, proper
   segregation of duties, and compliance with the DoD preponderance-of-use policy.
   We compared the DoD preponderance-of-use policy with the Statement of
   Federal Financial Accounting Standards No. 4 to assess whether the policy
   complied with GAAP. We also reviewed real estate agreements and lists of
   building occupants, in terms of square footage, to determine the preponderant
   users of buildings and other structures located on five judgmentally
   selected AWCF installations. We compared our analysis of the preponderant
   users to what the reporting entities recorded in IFS to determine whether the
   Army complied with the DoD preponderance-of-use policy.

   We judgmentally selected assets at the five AWCF installations and traced real
   property transactions from the property management systems to the accounting
   systems to determine whether the Army real property data were accurate and
   complete. To assess financial reporting, we expanded our review to compare the
   process used by AWCF and AGF entities. In addition, we compared the AWCF


                                      30
and AGF IFS data fields to determine differences. We obtained access to IFS for
the five AWCF installations (Rock Island Arsenal, Illinois; Tobyhanna Army
Depot, Pennsylvania; Anniston Army Depot, Alabama; Corpus Christi Army
Depot, Texas; and Crane Army Ammunitions Activity, Indiana) and one AGF
installation (Fort Belvoir, Virginia) to view the real property data. We also
conducted site visits to the five AWCF installations to observe how they complied
with DoD preponderance-of-use policy and recorded real property acquisitions,
modifications, and deletions. We reviewed real property information reported on
the FY 2005 AWCF Financial Statements and identified a sixth installation (Pine
Bluff Arsenal, Arkansas) to test for compliance with the DoD preponderance-of-
use policy. The following table shows the errors identified for the six AWCF
installations, based on our review of real property data.

               AWCF Installations Selected for Review
                                 Errors
                                Found
              Entity           (millions)       Dates Visited
   Rock Island Arsenal                      October 16-27, 2006
   Tobyhanna Army Depot          $ 1.7      December 11-15, 2006
   Anniston Army Depot            155.5     February 12-15, 2007
   Corpus Christi Army Depot                February 12-16, 2007
   Crane Army Ammunitions
   Activity                                 February 21-22, 2007
   Pine Bluff Arsenal             267.1     Did not visit
    Total                        $424.3


Use of Computer-Processed Data. The Data Mining Directorate, Office of the
Deputy Inspector General for Policy and Oversight, conducted limited tests of
reliability on the data from IFS, DPAS, and DCD/DCW. They compared the files
to the record layouts, verifying that record counts obtained from ACSIM, and
DFAS personnel matched the file totals after importing them into the Audit
Command Language software and reviewing the data for valid entries. We also
relied on additional evidence to validate data reliability. We compared the IFS
data for selected real property assets with physical documentation used to
establish the records. We identified discrepancies in the records when we
compared the data. We discuss discrepancies in the data and the related system
control weaknesses in Findings B and C. In addition, we will issue a second
report discussing internal control weaknesses and discrepancies between the data
in IFS and the supporting documentation. Although we did not perform a formal
reliability assessment of the computer-processed data, we determined that the data
were sufficiently reliable to use in conjunction with physical documentation to
test the controls over AWCF real property assets.

Use of Technical Assistance. The Data Mining Directorate imported the original
files from IFS, DPAS, and DCD/DCW into the Audit Command Language
software and conducted limited tests of reliability on the computer-processed
data.



                                    31
       GAO High-Risk Areas. The GAO has identified several high-risk areas in DoD.
       This report provides coverage of the Managing Federal Real Property and DoD
       Financial Management high-risk areas.


Prior Coverage
       During the last 5 years, GAO, the DoD Inspector General (DoD IG), and the U.S.
       Army Audit Agency have issued five reports discussing the processes and
       systems related to the financial reporting of AWCF and AGF real property assets.
       Unrestricted GAO reports can be accessed over the Internet at www.gao.gov.
       Unrestricted DoD IG reports can be accessed at www.dodig.mil/audit/reports.

GAO
       GAO Report No. GAO-05-848T, “Further Actions Needed to Address
       Long-standing and Complex Problems,” June 22, 2005

DoD IG
       DoD IG Report No. D-2007-087, “Internal Controls over Army General Fund
       Transactions Processed by the Business Enterprise Information Services,”
       April 25, 2007

       DoD IG Report No. D-2006-072, “Internal Controls Related to Department of
       Defense Real Property,” April 6, 2006

Army
       U.S. Army Audit Agency Report No. A-2006-0249-FFM, “Defense Property
       Accountability System Material Weakness Closeout,” September 28, 2006

       U.S. Army Audit Agency Report No. A-2006-0066-FFM, “Integrated Facilities
       System Requirements Validation,” March 8, 2006




                                          32
Appendix B. Glossary
   Accounting System. An accounting system provides full general-ledger control
   over financial transactions and resource balances.

   Accumulated Depreciation. The amount of depreciation expense accumulated
   over the useful life of the asset, which starts when the asset is placed in service.

   Acquisition Cost. The acquisition cost includes all costs incurred to bring the
   asset to a form and location suitable for its intended use. Examples include
   amounts paid to vendors, transportation charges, and handling and storage costs.

   Business Enterprise Information Services. Business Enterprise Information
   Services is an information system that includes the DFAS Corporate Database,
   the DFAS Corporate Warehouse, and the Defense Departmental Reporting
   System. The Business Enterprise Information Services processes nonstandard
   transactions from feeder systems through a series of complex filter and crosswalk
   tables, converts them to standard transactions, and posts them to the general
   ledger accounts.

   Construction Agent. The construction agent is the U.S. Army Corps of
   Engineers, the Naval Facilities Engineering Command, or another approved DoD
   organization assigned the design or construction management responsibilities
   associated with a military construction program.

   Construction-in-Progress (CIP). Construction-in-progress is the accumulation
   of construction costs charged to a project since its inception. It includes labor,
   materials, and overhead costs associated with project design, site preparation, and
   actual preparation.

   Controlling Entity. The entity that is responsible and accountable for receiving,
   managing, and using Government assets in relation to its program or operations.
   Typically, the legislation establishing a program, appropriations act funding it, or
   related laws clearly identify which entity is responsible for the program.

   Real Property. Real property consists of land, buildings, and other structures;
   improvements to owned or leased real property assets; and real property
   construction-in-progress.

   Real Property Accountability Officer (RPAO). The real property
   accountability officer is the individual who accepts and accounts for buildings
   and other structures at an Army installation.

   Real Property Management System. The Army’s property management system
   maintains the real property inventory information for Army buildings, structures,
   land, and utilities. The real property management system serves as the basic
   source of information for each item of real property, including the asset’s
   category, status, cost, area, capacity, condition, use, and capital improvements.


                                         33
Subsidiary Ledger. The subsidiary ledger produces transactional data needed
for the general ledger. For real property, the subsidiary ledger identifies location,
quantity, acquisition date, cost, useful life, and other information.




                                     34
Appendix C. Real Property Systems

Real Property Management Systems
    The Army uses two systems to perform the functions related to AWCF and AGF
    real property management. The real property management systems generate
    financial transactions and send them to Army accounting systems.

    Integrated Facilities System (IFS). Army installations use IFS as their primary
    real property management system. The Army implemented IFS in 1976 to
    perform real property management and sustainment functions. The system
    contains seven applications, including real property. Installation personnel use
    the real property function to track and report the use, assignment, and occupancy
    of owned and leased real property assets. The real property function allows users
    to:

           •   add real property asset records;

           •   classify real property assets as buildings, structures, utility distribution
               systems, or land;

           •   determine and maintain the proper facility category codes for each real
               property asset;

           •   record the space assignment of each real property asset;

           •   post real property capital increases and decreases;

           •   provide information for the Defense Property Accountability System
               reporting; and

           •   generate a variety of system-generated and user requested queries and
               reports.

    Defense Property Accountability System (DPAS). In December 1994, the
    USD(C)/CFO designated DPAS as the system for property management and
    financial reporting of DoD personal and real property assets. DPAS obtains real
    property records, calculates depreciation, maintains subsidiary ledger files, and
    sends financial transactions to the financial management systems. When initially
    fielded, IFS did not have the functionality to calculate and report the depreciated
    (book) value of real property assets. In December 1999, the Army implemented a
    two-way interface between DPAS and IFS to provide an integrated process to
    account for and report all Army real property. The Army implemented the
    interface at 12 installations supporting the AWCF Industrial Operations activity
    group.



                                         35
    IFS sent DPAS all real property records that met the DoD capitalization
    threshold, which DPAS used to calculate depreciation. DPAS returned the
    following four files to IFS:

           •   Rejected records,

           •   Mismatched capitalization records,

           •   Current accumulated depreciation amounts, and

           •   New capitalization records added by DPAS.


AWCF Accounting Systems
    The AWCF Industrial Operations activity group uses two accounting systems to
    report real property financial information. The Standard Industrial Fund System
    (SIFS) is a legacy accounting system used by 12 of the 13 installations supporting
    the AWCF Industrial Operations activity group. The Army initially fielded the
    the Logistics Modernization Program (LMP) system at select locations in July
    2003, including Tobyhanna Army Depot. It is the future AWCF accounting
    system. In March 2006, the Army Program Executive Office, Enterprise
    Information Systems assumed responsibility for the future fielding and system
    functionality of LMP. DPAS sends real property financial transactions to SIFS
    and LMP to post to the appropriate general ledger accounts. The Supply
    Management, Army activity group uses the Standard Operations and
    Maintenance, Army Research and Development System as its accounting system.
    Resource managers must prepare journal vouchers to enter real property
    information into the Standard Operations and Maintenance, Army Research and
    Development System because DPAS does not send it information directly.




                                        36
Appendix D. Memorandum to the Office of the
            Under Secretary of Defense
            (Comptroller)/Chief Financial Officer




                         37
38
39
40
41
Appendix E. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
   Director, Acquisition Resources and Analysis
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Deputy Under Secretary of Defense for Business Transformation
Director, Program Analysis and Evaluation

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army
Program Executive Officer, Enterprise Information Systems
Assistant Chief of Staff for Installation Management

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Combatant Command
Inspector General, U.S. Joint Forces Command

Other Defense Organization
Director, Defense Finance and Accounting Service

Non-Defense Federal Organization
Office of Management and Budget




                                          42
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Oversight and Government Reform
House Subcommittee on Government Management, Organization, and Procurement,
  Committee on Oversight and Government Reform
House Subcommittee on National Security and Foreign Affairs,
  Committee on Oversight and Government Reform




                                      43
Under Secretary of Defense (Comptroller)/Chief
Financial Officer Comments




                      45
46
     Final report
      Reference




     Revised
     Recommen-
     dation to
     DoD FMR,
     volume 11B




47
Department of Army Comments




                   48
49
50
51
52
53
Defense Finance and Accounting Service
Comments




                      54
     Final Report
      Reference




     Redirected
     Recommen-
     dation




55
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial Auditing Service prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Paul J. Granetto
Patricia A. Marsh
Carmelo G. Ventimiglia
George C. DeBlois
Bradley D. Grubb
Barbara A. Purvis
Sharon R. Roydes
Lisa L. Brown
Mackenzie B. Arnold
Pamela S. Varner
Suellen Foth
E. Ellen Kleiman-Redden
